<html>
<title> - INTERNATIONAL WILDLIFE TRAFFICKING THREATS TO CONSERVATION AND NATIONAL SECURITY</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]




INTERNATIONAL WILDLIFE TRAFFICKING THREATS TO CONSERVATION AND NATIONAL 
                                SECURITY

=======================================================================

                                HEARING

                               BEFORE THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

                               __________

                           FEBRUARY 26, 2014

                               __________

                           Serial No. 113-143

                               __________

        Printed for the use of the Committee on Foreign Affairs






[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]





Available via the World Wide Web: http://www.foreignaffairs.house.gov/ 
                                  or 
                       http://www.gpo.gov/fdsys/

                               __________

                         U.S. GOVERNMENT PRINTING OFFICE 

86-869 PDF                     WASHINGTON : 2014 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Printing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001

















                      COMMITTEE ON FOREIGN AFFAIRS

                 EDWARD R. ROYCE, California, Chairman
CHRISTOPHER H. SMITH, New Jersey     ELIOT L. ENGEL, New York
ILEANA ROS-LEHTINEN, Florida         ENI F.H. FALEOMAVAEGA, American 
DANA ROHRABACHER, California             Samoa
STEVE CHABOT, Ohio                   BRAD SHERMAN, California
JOE WILSON, South Carolina           GREGORY W. MEEKS, New York
MICHAEL T. McCAUL, Texas             ALBIO SIRES, New Jersey
TED POE, Texas                       GERALD E. CONNOLLY, Virginia
MATT SALMON, Arizona                 THEODORE E. DEUTCH, Florida
TOM MARINO, Pennsylvania             BRIAN HIGGINS, New York
JEFF DUNCAN, South Carolina          KAREN BASS, California
ADAM KINZINGER, Illinois             WILLIAM KEATING, Massachusetts
MO BROOKS, Alabama                   DAVID CICILLINE, Rhode Island
TOM COTTON, Arkansas                 ALAN GRAYSON, Florida
PAUL COOK, California                JUAN VARGAS, California
GEORGE HOLDING, North Carolina       BRADLEY S. SCHNEIDER, Illinois
RANDY K. WEBER SR., Texas            JOSEPH P. KENNEDY III, 
SCOTT PERRY, Pennsylvania                Massachusetts
STEVE STOCKMAN, Texas                AMI BERA, California
RON DeSANTIS, Florida<greek-l>       ALAN S. LOWENTHAL, California
TREY RADEL, Florida--resigned 1/27/  GRACE MENG, New York
    14 deg.                          LOIS FRANKEL, Florida
DOUG COLLINS, Georgia                TULSI GABBARD, Hawaii
MARK MEADOWS, North Carolina         JOAQUIN CASTRO, Texas
TED S. YOHO, Florida
LUKE MESSER, Indiana

     Amy Porter, Chief of Staff      Thomas Sheehy, Staff Director

               Jason Steinbaum, Democratic Staff Director























                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

The Honorable Kerri-Ann Jones, Assistant Secretary, Bureau of 
  Oceans and International Environmental and Scientific Affairs, 
  U.S. Department of State.......................................     5
The Honorable Daniel M. Ashe, Director, U.S. Fish and Wildlife 
  Service, U.S. Department of the Interior.......................    17
Mr. Robert G. Dreher, Acting Assistant Attorney General, 
  Environment and Natural Resources Division, U.S. Department of 
  Justice........................................................    28

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

The Honorable Kerri-Ann Jones: Prepared statement................     8
The Honorable Daniel M. Ashe: Prepared statement.................    19
Mr. Robert G. Dreher: Prepared statement.........................    30

                                APPENDIX

Hearing notice...................................................    60
Hearing minutes..................................................    61
The Honorable Edward R. Royce, a Representative in Congress from 
  the State of California, and chairman, Committee on Foreign 
  Affairs: Material submitted for the record by the National 
  Rifle Association..............................................    63
The Honorable Eliot L. Engel, a Representative in Congress from 
  the State of New York: Prepared statement......................    66
The Honorable Edward R. Royce: Questions submitted for the record 
  to the Honorable Daniel M. Ashe................................    68
The Honorable Jeff Duncan, a Representative in Congress from the 
  State of South Carolina: Questions submitted for the record to 
  the Honorable Kerri-Ann Jones, the Honorable Daniel M. Ashe and 
  Mr. Robert G. Dreher...........................................    71

 
                   INTERNATIONAL WILDLIFE TRAFFICKING
                      THREATS TO CONSERVATION AND
                           NATIONAL SECURITY

                              ----------                              


                      WEDNESDAY, FEBRUARY 26, 2014

                       House of Representatives,

                     Committee on Foreign Affairs,

                            Washington, DC.

    The committee met, pursuant to notice, at 10:11 a.m., in 
room 2172 Rayburn House Office Building, Hon. Edward Royce 
(chairman of the committee) presiding.
    Chairman  Royce. This hearing will come to order and I'm 
going to ask the members to come down to the committee and take 
their seats so we can get started.
    This hearing is on international wildlife trafficking and 
threats to conservation, threats to security, and I would just 
start with the observation that we have a major slaughter going 
on across the African subcontinent.
    If we had looked at the numbers a few years ago we would 
have found that between 1990 and 2005, South Africa lost 14 
rhinos a year. Friends, last year there were thousands 
slaughtered in South Africa.
    It gives you a sense of the magnitude of what is happening 
to the white rhino, the black rhino. If we look at elephants, 
last year--well, back in 2011, 17,000 elephants were killed in 
sub-Saharan Africa illegally. Now we go to the following year--
30,000 killed in 1 year.
    How can this be? How can this new battlefield in this fight 
end up in such absolute slaughter, threatening the extinction 
of some of these species?
    There is a battlefield there and part of it is with 
organized crime and part of it is that organized crime has 
tools that poachers in the past did not have, and increasingly 
rebel groups and especially terrorist organizations like al-
Shabaab are carrying into the fight a new type of weaponry that 
these animals have not been up against in the past and the 
battle where this is being carried out is in South Africa's 
national parks.
    Some years ago, some of us worked to set up a national park 
system--Congo Basin Forest Partnership Act. Well, now those 
parks across Africa are the battlefield in which these species 
are being slaughtered.
    So as one witness will tell the committee, we are at a 
pivotal moment in the conservation movement with an alarming 
and unprecedented dramatic increase in the slaughter of 
wildlife.
    Driving that slaughter, of course, is the value and we--I 
talked a little bit here about what happened to the black 
rhino. The value of rhino horn right now is $60,000 per kilo.
    Now, that is more than platinum. That is more than cocaine. 
So you can see why these criminal syndicates are part of the 
chain. You can have terrorists or poachers or some of these 
rebel groups that do the work on the ground but they pass it 
off to a criminal syndicate that then moves it to market.
    If you looked at the cost of ivory, tusk, $1,000 per 
kilogram. So that makes trafficking among the most lucrative 
criminal activities worldwide right now, generating $8 billion 
to $10 billion per year and that cash flow allows today's 
poacher to buy something he hasn't had in the past. He has got 
at his disposal helicopters, high-powered weapons, night-vision 
goggles.
    And then you take into account the intelligence community 
and what they are briefing us on and they are saying that 
traffickers' use of sophisticated networks is now part of the 
program to move these products and that this is not just a 
threat to wildlife anymore.
    Increasingly, they say, you have terrorist and rebel groups 
capitalizing on this trade and that that is a threat to 
national security.
    One example, al-Shabaab--al-Qaeda's affiliate in Somalia--
they have turned to the ivory trade for funding. Joseph Kony 
and his Lord's Resistance Army, when we talked a little bit in 
the past in these hearings about exploiting child soldiers, 
well, they are exploiting the region's most unique and limited 
natural resource to fund its brutal violence as well as 
exploiting children.
    In response to this crisis, I authored legislation last 
Congress to expand the State Department's rewards program to 
target transnational criminal syndicates. That has been done.
    The first issue--the first example of this is the Pablo 
Escobar of wildlife trafficking, Vixay Keosavang, has been 
caught. His number-two man was caught in South Africa and just 
got 40 years. Ivory and rhino horn were among what was being 
shipped out of the country.
    In order to take a comprehensive look at this--at this 
problem, the President established an interagency task force. 
As a starting point the group developed and published the 
National Strategy for Combating Wildlife Trafficking and we are 
going to assess that today.
    We are going to look forward to hearing that report and, 
uniquely, the task force also sought advice from an advisory 
council of outside experts and this included David Barron of 
the International Conservation Caucus Foundation.
    David has worked with Congress for years on these critical 
issues. There are many others including Africans whose views 
must be heard on this subject and as this strategy was being 
developed several of us urged the administration to act boldly 
to utilize the tools--the law enforcement tools right now that 
we currently use to dismantle other illicit transnational 
networks.
    I know of no reason why we can't make the same argument, 
and one thing is clear to me. Whether dealing with global 
terrorist networks such as Hezbollah or international arms 
dealers such as Viktor Bout or even--or even tackling North 
Korea's illicit activities, when the U.S. Government is 
focused, when the government is directed, it can deliver 
devastating blows to our enemies.
    We have seen that. We have seen them put people like Viktor 
Bout behind bars. What is needed here is exactly that approach 
and what we want to do is encourage the administration to do 
precisely that, and I am sure our NGO groups want to see the 
same follow through.
    So future generations will judge our response to this 
crisis. If we want a world still blessed with these magnificent 
species, we need creative action. We need very aggressive 
action.
    We need to work with source and transit and demand to 
confront the challenge, and as Director Ashe will testify, the 
criminals have raised their game. We now must do the same, and 
I will now turn to the ranking member for her opening comment, 
Karen Bass from Los Angeles.
    Ms.  Bass. Mr. Chairman, thank you very much for today's 
hearing and in general for your leadership on this issue.
    I know that many people here are aware of Mr. Royce's 
leadership on this issue for many years but a few months ago I 
was attending a dinner and had an opportunity to hear his full 
history on this issue. So I want to thank you for your 
leadership over many, many years.
    I also want to thank our witnesses today for your great 
work and commitment to solving this international crisis. I am 
encouraged by the worldwide movement and the administration's 
focus on this issue and I look forward to continue to be 
involved in the implementation of the National Strategy for 
Combating Wildlife Trafficking.
    As I know we will hear more of and have heard some, 
international wildlife trafficking is not only a security and 
conservation issue but it also undermines the stability and 
development of many African nations.
    Throughout the continent, recent spikes in poaching has 
caused instability by providing funds for illicit activities, 
spreading violence and hurting the nation's ability to develop 
indigenous and local sources of revenue through wildlife 
tourism.
    I have seen first-hand the importance of wildlife tourism 
to local community development. A couple of years ago, I was on 
a CODEL to Gabon and also to Botswana and I met with members of 
communities alongside eco-oriented wildlife sites.
    Many of the people provided services for or worked at these 
eco-sites. In Botswana, for example, I visited a village where 
the villagers had a contract with a firm in South Africa and 
the South African company came and helped them develop a small 
but a high-end resort--tourism resort.
    And they were able to, one, employ all of the members of 
the village in terms of building the resort but also people who 
came and visited the resort after a few years, they were able 
to generate $\1/2\ million in revenue for the village, which 
they then plowed back into the development of the village, and 
it gave me a whole new way to look at this issue.
    I know that if trafficking continues at the current rate it 
will undercut success that has been made at this site and many 
others and prevent other communities from developing their own 
strategies to use wildlife tourism and community development.
    So I look forward to your testimony today and also to see 
more of what we can do to end this but also to assist the 
various nations in their further development.
    Thank you very much.
    Chairman  Royce. Thank you, Congresswoman Bass.
    Any other members want to make an opening statement? Yes, 
Mr. Rohrabacher.
    Mr.  Rohrabacher. I would like to thank the chairman for 
holding this hearing, and for those of you who don't know it 
takes someone to make a decision on how we are going to 
allocate our time here.
    And I think your decision, Mr. Chairman, to hold a hearing 
on this subject demonstrates the scope as well as the depth of 
your world view.
    And not all chairmen would have a hearing on this issue, 
and today we acknowledge the destruction of these majestic 
species in Africa and we realize and we underscore that closing 
our eyes to this perhaps historic malady that we are facing in 
humankind today not only is it just the obliteration of wild 
species in Africa but also as important to our own security, 
which so often happens when we close our eyes to some evil that 
is going on. We end up not being able to close our eyes.
    As the chairman has pointed out, terrorists and others now 
are using this very vehicle to handle their own affairs--to pay 
for their own affairs, which threaten the rest of the world and 
threaten all of us.
    So thank you very much, Mr. Chairman, for your leadership.
    Chairman  Royce. Thank you, Mr. Rohrabacher.
    We will go to Mr. Cicilline from Rhode Island.
    Mr.  Cicilline. Thank you, Mr. Chairman, and I thank the 
witnesses for being here today.
    Mr. Chairman, I want to just take a moment to applaud your 
leadership on this issue and to say that I was at the same 
dinner and I was profoundly moved learning of your very long 
history in this area.
    And I am particularly delighted to also recognize the new 
but equally passionate leadership of our ranking member of the 
Africa Subcommittee, Congresswoman Bass, and look forward to 
what we can do as a committee and as a Congress to address this 
very important issue, and I thank the witnesses for being here 
and I yield back.
    Chairman  Royce. Thank you, Mr. Cicilline.
    This morning, we are pleased to be joined by 
representatives from the Department of State, the Department of 
Interior and the Department of Justice, who represent the three 
co-chairs of the Presidential Task Force on Wildlife 
Trafficking.
    Prior to her appointment as Assistant Secretary of State 
for Oceans and International Environment, Dr. Kerri-Ann Jones 
worked in several capacities within the U.S. Government 
including positions in the White House Office of Science and 
Technology Policy, the National Science Foundation, the U.S. 
Agency for International Development and NIH.
    Dr. Daniel Ashe serves as the 16th Director of the U.S. 
Fish and Wildlife Service, the nation's principal Federal 
agency dedicated to the conservation of fish and wildlife and 
the conservation of their habitats.
    Earlier in his career, Mr. Ashe was a staffer here on 
Capitol Hill where he worked, of course, on conservation 
issues, and welcome back.
    As Acting Assistant Attorney General for the Environmental 
and Natural Resources Division, Mr. Robert Dreher is tasked 
with prosecuting these environmental crimes, and without 
objection your full testimony will be put in the record, and if 
I might suggest you might want to summarize.
    If you could hold it to 5 minutes, and members are going to 
have 5 days to submit any additional statements or questions 
that you might respond to and any extraneous materials for the 
record that they might want to put into the record.
    So, Dr. Jones, if you could start. We appreciate you being 
with us.

     STATEMENT OF THE HONORABLE KERRI-ANN JONES, ASSISTANT 
SECRETARY, BUREAU OF OCEANS AND INTERNATIONAL ENVIRONMENTAL AND 
          SCIENTIFIC AFFAIRS, U.S. DEPARTMENT OF STATE

    Ms.  Jones. Thank you. Good morning, Chairman Royce and 
Ranking Member Bass, and members of the committee.
    I appreciate the opportunity to be here before you today 
with my colleagues to address wildlife--the wildlife 
trafficking crisis.
    At the outset, I would like to extend my thanks to Chairman 
Royce and other Members of Congress for focusing strong 
attention and action on this pernicious multifaceted crisis.
    If this is left unchecked, we will be facing more serious 
threats to conservation, local economies, security as well as 
health. This terrible problem has been recognized by Congress, 
by the NGO community around the world, by the private sector 
and across the executive branch.
    The President's July 2013 Executive order called for 
action, establishing an interagency task force and an advisory 
council, and earlier this month, as you mentioned, Chairman, 
the President released the National Strategy for Combating 
Wildlife Trafficking which lays out a clear whole of government 
plan forward with three strategic priorities.
    These are strengthening domestic and global enforcement, 
reducing demand for illegally-traded wildlife at home and 
abroad and building international cooperation and public-
private partnerships to combat illegal wildlife poaching and 
trade.
    The September 2013 white paper on wildlife poaching from 
the Office of the Director of National Intelligence points out 
that the increasing demand and high profitability of illegal 
wildlife products has broadened the scope and scale of the 
problem, particularly in Africa.
    African countries are facing mounting security challenges 
where they are often outgunned by heavily-armed criminal 
operations. Strengthening enforcement is a necessity and we 
have taken some actions to begin to address this crisis.
    This past November, Secretary Kerry announced the first 
ever reward for information leading to the dismantling of the 
Xaysavang Network, a transnational crime syndicate facilitating 
wildlife trafficking across Africa and Asia.
    Chairman Royce's efforts were instrumental in being able to 
put out this announcement for reward and we thank you, 
Chairman.
    For the last decade, the department has partnered with 
other U.S. agencies to stand up five regional wildlife 
enforcement networks and our goal is to connect these regional 
networks and create a global network.
    Our foreign assistance will continue to strengthen policies 
and legislative frameworks to enhance investigative and law 
enforcement functions and to support regional cooperation among 
enforcement agencies.
    They will also work to develop capacities to prosecute and 
adjudicate crimes related to wildlife trafficking. However, to 
address wildlife trafficking we must also address demand.
    We must remove--reduce the market for these products. To do 
this, we intend to strengthen our efforts with international 
partners to communicate the negative impacts of this 
devastating trade on security, environment, local economies and 
public health.
    For example, USAID's Asia Regional Response to Endangered 
Species Trafficking, or ARREST--the ARREST Project--has 
launched a series of demand reduction campaigns in Asia's three 
biggest wildlife market and transit countries and a first Asia-
wide smart phone application that will help counter illegal 
trade in wildlife. And, of course, we will continue to work 
through our missions around the world to get the message out 
every way we can.
    The third strategic priority recognizes that solutions to 
this challenging problem require partnerships. We continue to 
strengthen our diplomatic work to raise the profile of this 
issue.
    We are highlighting the issue in the G-8, in Asia regional 
bodies and at the U.N. Commission on Crime Prevention and 
Criminal Justice.
    We have secured the inclusion of language to address 
wildlife trafficking in two security resolutions adopted in 
January 2014 sanctioning African armed groups.
    At the recent London conference, 42 nations in the EU 
signed on to a declaration that the U.S. helped shape that 
includes the commitment to avoid the use of endangered species 
in government purchases and also calls for the continuation of 
the prohibition of a ban on ivory trade.
    We are working with key partners like Indonesia, where just 
a couple of weeks ago Secretary Kerry signed an MOU with--a 
memorandum of understanding with Forest Minister Hassan that 
addresses wildlife and conservation.
    We are working with China. Law enforcement entities in 
China and the U.S. joined other countries including 26 African 
and Asian nations in a successful global investigative effort, 
Operation Cobra II.
    This was a follow-on to an earlier activity, Cobra I. Both 
have been very successful. Also, in the upcoming strategic and 
economic dialogue with China we plan to again address wildlife 
trafficking and to push for concrete actions in terms of 
raising public awareness to reduce demand and strengthening law 
enforcement.
    Mr. Chairman, I would like to reiterate Secretary Kerry's 
continued commitment to tackling this very important illegal 
trade issue.
    We are committed to do more and work smarter with partners 
around the world to support wildlife range states, to maintain 
the integrity of their national borders and to protect their 
iconic wildlife for future generations.
    Congress has shown great leadership on this issue. We 
appreciate your support and we very much look forward to 
working with you--continuing to work with you on this important 
issue.
    Thank you for the invitation to be here today and I look 
forward to your questions. Thank you.
    [The prepared statement of Ms. Jones follows:]



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                              ----------                              

    Chairman  Royce. Thank you, Doctor.
    Mr. Ashe.

STATEMENT OF THE HONORABLE DANIEL M. ASHE, DIRECTOR, U.S. FISH 
     AND WILDLIFE SERVICE, U.S. DEPARTMENT OF THE INTERIOR

    Mr.  Ashe. Good morning, Chairman Royce, Ranking Member 
Bass, committee members. On behalf of Secretary Sally Jewell, I 
appreciate the opportunity to testify here today about the 
National Strategy for Combating Wildlife Trafficking.
    Spurred by President Obama's Executive order, the strategy 
begins the process of leveraging resources and expertise across 
the Federal Government to crack down on the poaching and 
trafficking that is devastating some of the world's most 
beloved animals, evidence of that trafficking is on display 
here on the tabletop before us.
    As recent events demonstrate, United States leadership is 
vital. Since we crushed the United States' stockpile of seized 
illegal ivory in November, China and France have followed suit, 
and Hong Kong has also announced its intention to do so.
    At my right in front of Dr. Jones is a sample of the 
crushed ivory from our Denver event in November. In addition, 
this past year we concluded our most successful CITES 
conference ever with nine of the 10 U.S.-sponsored proposals 
gaining approval by member nations.
    The Department of the Interior and the U.S. Fish and 
Wildlife Service will help lead the strategy's implementation 
with our colleagues in the Department of Justice and State, 
building on the foundation that has been laid through decades 
of international conservation and law enforcement work.
    We have a four-tiered approach to combating wildlife 
trafficking with our international partners. First, we continue 
to work with international law enforcement agencies to disrupt 
and dismantle trafficking networks and arrest those responsible 
for the brutal slaughter of these magnificent creatures.
    We have a photo, I think, showing some 1,500 raw tusks that 
were recently seized in Togo, the largest seizure yet by a West 
African nation, and perhaps that will be displayed in a moment.
    We provide critical financial and technical support for on-
the-ground conservation efforts and to build the capacity of 
range states to protect wildlife and bring poachers and 
traffickers to justice.
    We work here in the United States and with our partners in 
Asia, Europe and Latin America to reduce demand for wildlife 
products and we continue working with CITES member nations to 
support sustainable trade and well-managed wildlife management 
programs that provide jobs and economic development 
opportunities in development range countries, as Ranking Member 
Bass was speaking to, thus reducing the allure of poaching and 
trafficking.
    Now highlighting some of the strategy's most significant 
actions, we are using the full extent of our existing legal 
authority to stop virtually all commercial trade of elephant 
ivory and rhino horn within the United States and across its 
borders.
    Just yesterday, I signed a Fish and Wildlife Service 
Director's Order 210, beginning the implementation of that 
effort. All commercial imports of African elephant ivory into 
the United States will be prohibited without exception.
    Nearly all commercial exports of elephant ivory will also 
be prohibited with the exception of a very small, strictly 
defined, class of antiques with verified documentation of their 
antiquity.
    Domestic commerce will be prohibited, again, with the 
exception of documented antiques and other items clearly 
documented as legally imported prior to the protection of the 
species under CITES Appendix 1.
    The strategy also recommends the continued sale of the Save 
Vanishing Species semipostal stamp. The public has purchased 
more than 25.5 million stamps, generating more than $2.5 
million for conservation of elephants, rhinoceros, tigers, 
marine turtles and great apes.
    I want to conclude by asking you to consider this moment in 
history. Mr. Rohrabacher referenced the leadership that is 
being demonstrated here. We have a chance here and now to take 
action to ensure that elephants, rhinos and hundreds of other 
wild plant and animal species do not vanish from the wild.
    Because of the President's leadership, that of good 
colleagues and friends and other great institutions and that of 
this great committee, we can dare to dream that our 
grandchildren will be able to see these iconic species, their 
heritage as global citizens, in their native habitat in the 
wild.
    I look forward to working with your committee to help to 
make this dream a reality. Thank you, Mr. Chairman.
    [The prepared statement of Mr. Ashe follows:]



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                              ----------                              

    Chairman  Royce. Thank you.
    Mr. Dreher.

 STATEMENT OF MR. ROBERT G. DREHER, ACTING ASSISTANT ATTORNEY 
   GENERAL, ENVIRONMENT AND NATURAL RESOURCES DIVISION, U.S. 
                     DEPARTMENT OF JUSTICE

    Mr.  Dreher. Chairman Royce, Ranking Member Bass and 
members of the Committee on Foreign Affairs----
    Chairman  Royce. Let us try it one more time on punching 
that button.
    Mr.  Dreher. Okay.
    Chairman  Royce. There we go.
    Mr.  Dreher. That seems to be working.
    Chairman Royce, Ranking Member Bass and members of the 
Committee on Foreign Affairs, thank you for the opportunity to 
appear before you today to discuss the work with the Department 
of Justice regarding wildlife trafficking.
    The Department of Justice has long been a leader in the 
fight against wildlife trafficking and we are deeply engaged in 
the administration's efforts to combat wildlife trafficking and 
implement the National Strategy.
    Earlier this month, Associate Attorney General Tony West 
led the U.S. delegation at the London conference on illegal 
wildlife trade at which more than 40 countries agreed to a 
declaration on the need for international action to address 
this crisis.
    And the Department of Justice served as a co-chair along 
with my fellow co-chairs from the Department of State and 
Department of Interior and worked closely with 14 other Federal 
agencies to develop the National Strategy.
    As the strategy recognizes, strong enforcement is critical 
to stopping those who kill and traffic in protected species. 
The environmental crime section of the Department of Justice 
works with the U.S. Attorneys Offices around the country and 
with our Federal agency partners to enforce the Lacey Act and 
the Endangered Species Act as well as statutes prohibiting 
smuggling, criminal conspiracy and related crimes.
    In our prosecutions we are increasingly seeing the 
involvement of criminal organizations, including transnational 
criminal organizations, that may threaten the security 
interests of the United States and its allies.
    We are currently involved, for example, in prosecuting 
cases developed through Operation Crash, an ongoing multi 
agency effort with very strong involvement of the investigative 
agents of the Fish and Wildlife Service and other Federal 
agencies including Customs and Border Patrol, to detect and 
prosecute those engaged in illegal killing of rhinoceros and 
the trafficking of rhinoceros horn. This initiative has 
resulted in multiple convictions, significant jail time, 
penalties and forfeited assets.
    Recent Operation Crash cases involve organized criminal 
elements that speak to the scope and scale of this problem. In 
one such case, Zhifei Li, a Chinese national, pled guilty this 
past December to organizing a conspiracy in which at least 30 
raw rhinoceros horns and numerous objects made from rhino horn 
and elephant ivory worth more than $4.5 million were smuggled 
illegally from the United States to China.
    Li admitted that he was the boss of several antique dealers 
in the United States who helped him obtain and smuggle wildlife 
items and that he supplied ivory to three illegal-carving 
factories in China.
    In another case, Michael Slattery, Jr., an Irish national, 
was recently sentenced to serve 14 months incarceration as well 
as to pay a fine and forfeit proceeds from his illegal trade in 
rhinoceros horn.
    He admitted to illegal trafficking throughout the United 
States and is alleged to belong to an organized criminal group 
engaged in rhino horn trafficking.
    We have seen success in prosecuting those illegal--who 
illegally traffic in elephant ivory including, for example, a 
defendant whose import-export businesses were fronts for 
smuggling into the United States products from endangered and 
protected wildlife species including raw elephant ivory.
    Another ivory case concerned a 2-year criminal conspiracy 
in which six defendants pleaded guilty to illegally importing 
ivory through the New York's JFK Airport.
    In our cases, we seek substantial penalties including 
incarceration appropriate for crimes of this magnitude. Strong 
enforcement in the United States is not enough, however. As the 
National Strategy recognizes, wildlife trafficking is a global 
problem that requires a global solution.
    For that reason, the Department of Justice has for many 
years worked closely with other Federal agencies to help 
foreign governments build their capacity to develop and 
effectively enforce their own wildlife trafficking laws.
    Our efforts in this area include training our foreign 
counterparts on the legal, investigative, prosecutorial and 
judicial aspects of enforcing wildlife laws.
    We seek to help our partners craft strong laws, strengthen 
their investigation and evidence-gathering capabilities and 
improve their judicial and prosecutorial effectiveness.
    I temporarily lost my place but I am soon about to recover 
it.
    Chairman  Royce. Feel free to summarize.
    Mr.  Dreher. Well, let me just say that we are very proud 
of our record of achievement in this area. The National 
Strategy is a reminder that much more is needed. The strategy 
calls for Federal coordination through a whole of government 
approach and is a strong basis for our continued movement 
forward.
    We will commit our efforts to the prosecution of wildlife 
criminals and give it--treat it with the seriousness that these 
crimes warrant and deserve. We look forward to working with 
Congress to strengthen existing laws and to adopt new 
legislation to improve the tools available to address this 
challenge.
    We welcome the longstanding interest of the members of this 
committee and others in the House and Senate in addressing this 
crisis, and thank you for the opportunity to participate.
    Thank you.
    [The prepared statement of Mr. Dreher follows:]



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                              ----------                              

    Chairman  Royce. Thank you very much. If I could go to Mr. 
Ashe first with the observation, Director Ashe, that Fish and 
Wildlife has began to do with the Embassies exactly what we 
have had the DEA or FBI do in the past, which is to say you are 
starting to station. I guess, in Thailand you have done this.
    We are trying in sub-Saharan Africa. I guess it is in the 
paperwork to get one of your--one of your agents in the Embassy 
there. I wonder--and I think it is in Tanzania that you are 
focused on that.
    Is there anything Congress could do to help expedite that 
and get that in place, get those agents on the ground in the 
Embassies?
    Mr.  Ashe. I think, as you said, with the help of the State 
Department and USAID we have had--we have had success. We will 
have our first law enforcement agent stationed in Bangkok later 
this month.
    We are working with the State Department. Our goal through 
the end of this year is to have two agents in Africa, two 
agents in Asia and one agent in Latin America, and we--and I 
think that the most important thing for Congress, obviously, is 
to provide the financial support for that.
    We will--we did receive an increase in the most recent 
appropriations bill. We would hope to receive additional 
funding in the coming year to provide further support for this 
effort and encouragement, of course, Mr. Chairman.
    Chairman  Royce. When we checked in on Tanzania, what was 
the hold-up at State on that? Do you know offhand or----
    Mr.  Ashe. I do not know the particular hold-up.
    Chairman  Royce. If there is anything we can do to expedite 
that just----
    Mr.  Ashe. Tanzania is--actually, what we are trying to do 
is station an expert in Tanzania that is not law enforcement. 
At this point, Tanzania has not requested law enforcement 
assistance so a little bit different situation in Tanzania.
    Chairman  Royce. Likewise, most of us have been out there 
to talk to the head of state and to the legislature. I know 
Karen Bass makes frequent trips to that area.
    So if there is anything we can do with their legislature or 
their executive branch to elicit that request, especially given 
what is being looted out of--trafficked out of Tanzania, we 
would be happy to do that.
    I am curious on another subject. Since the Attorney General 
and the Secretary of State consult with the Treasury Secretary 
on the designation process, there is existing authority to go 
after transnational criminal organizations that could be used 
here because the Treasury Department has the ability to 
sanction property, sanction assets of transnational criminal 
organizations.
    So how would the Department of Justice request to Congress 
to place wildlife trafficking as a predicate crime for money 
laundering, bolster the effort in--to attack the financing 
aspect of this if you feel that is important, and if you do is 
it possible from the panel here that we might get legislative 
language to do exactly what DOJ suggests here? Can you get me 
that draft language?
    Mr.  Dreher. Mr. Chairman, we welcome your interest in this 
and we would be happy to work very closely with the committee 
to try to develop language. The National Strategy does ask for 
help from Congress.
    We are seeking to have the same law enforcement tools that 
we have available to us to combat other very serious forms of 
transnational crime, and for wildlife trafficking some of those 
tools are more limited than we would benefit from including, in 
particular, making wildlife trafficking a predicate offense for 
money laundering charges.
    We would also seek help in making--getting clarification of 
our authority for asset forfeiture in cases where the predicate 
offenses were wildlife trafficking. We really want to try to 
take the profit out of this crime.
    But, Mr. Chairman, we would be happy to work with the 
committee and as closely as we can.
    Chairman  Royce. That language would be very helpful and 
very welcomed, I think, by the committee and we would work that 
out and move it quickly.
    Local community-based conservation was the other aspect of 
this that I wanted to ask you about. When I was chair of the 
Africa Subcommittee one of the trips we took with Secretary 
Colin Powell was to Central Africa.
    We spent time there with Michael Fay, National Geographic 
explorer in residence, who explained to us the critical 
importance of supporting on-the-ground local actors who are on 
the front lines of this fight, who have a stake in the fight, 
and realizing the impact that local community engagement could 
bring to conservation and we went forward and authored the 
Congo Basin Forest Partnership Act.
    Now, with our wildlife trafficking crisis, what unique role 
does community-based conservation play and what is their 
potential here for reducing wildlife poaching and how could we 
better work with these local community groups who now have a 
stake all right in--you know, through their sustainable 
development practices of, basically, monitoring the population 
there--the elephant populations and so forth.
    How might we be able to work with those community-based 
organizations? Director Ashe.
    Mr.  Ashe. Again, I think working collaboratively is the 
key to that and that is this--the power in this all of 
government approach.
    Certainly, we have--we have had within the Fish and 
Wildlife Service, within our international affairs program we 
have for decades now focused on building capacity within range 
state nations and I think that that is what we have to do and 
we have to build local incentive for the conservation of these 
species, and the State Department has been a great partner in 
that effort.
    Again, it is resource limited. We have great NGO partners, 
many of whom will be stepping up their efforts as well.
    But I think what you reference, Mr. Chairman, is the key 
that we have to--we have to work at the community level. We 
have to build capacity, law enforcement, economic development 
capacity related to these issues.
    We can't do that--any one of us cannot do that alone. We 
have to--we have to do that together. We have to have many, 
many more resources to get the job done.
    Chairman  Royce. The last issue I was going to ask your 
collective support for is an aspect that wasn't mentioned in 
the strategy and that is the role of the Defense Department.
    Many of the park rangers in these African countries don't 
have the capacity to fend off poachers because they are 
outgunned and many of these African countries depend on their 
militaries, frankly. They use the military there to protect the 
wildlife and to protect the borders.
    So the DoD has a long relationship with some of these armed 
forces, leveraging those relationships by having them provide 
the training to these military forces, or advising them could 
be very helpful in combating poaching.
    But I can tell you there has been a lot of--there has been 
a lot of push back from the DoD in the past when I have talked 
to them about this or we have floated this issue.
    I think it would be very helpful if the three of you would 
sort of expand this strategy to include that component because 
if we are serious about preparing these park rangers they are 
going to need a little bit more help than just what we are 
talking about here.
    You are going to have to bump it up, and I think you are 
going to find that the DoD has provided technical assistance to 
African armed forces. It would just be changing the attitudes 
of DoD to get them to understand that this is part of 
subverting transnational crime and some of these terrorist 
groups and others who are benefitting out of this by 
cooperating.
    What do you think about that, Director Ashe--whether the 
three of you think that is possible.
    Mr.  Ashe. I think, again, the opportunity for increased 
intelligence capacity, increased information sharing, training 
on the ground can certainly be enhanced by the involvement of 
the U.S. Defense Department.
    I would say, Mr. Chairman, I think one of the tragedies in 
all of this is, you know, if you will recall about 18 months 
ago we lost--we, the collective we--lost a park ranger at Mount 
Rainier National Park in an unfortunate incident and caused a 
moment of, certainly, within the entire Department of the 
Interior and I think within the nation as a whole, a moment of 
grief.
    Well, we see, you know, that one national park--Virunga 
National Park in the Congo--over the last decade they have lost 
100 rangers trying to protect these animals.
    So we need better--we need to better equip and train them 
and we need to provide mechanisms of support for their families 
because when those rangers are lost that is a family's income, 
a family that is essentially put at risk. And so we need better 
tools to deal with that aspect of this.
    Chairman  Royce. Well, what I am trying to get you to focus 
on is if the DoD is going to provide technical assistance to 
African armed forces, if you expand this to the park rangers 
and get them that capacity. Right now, they are outgunned.
    So I think you need to be--you need to convey that and see 
if you can't get us a little bit--if we get the administration 
to support that, frankly, that would be very helpful because we 
just went through a round here late last year on this. So that 
is, I guess, what I am asking you to do.
    Dr. Jones, if you could convey that and----
    Ms.  Jones. Yes.
    Chairman  Royce [continuing]. Try to--the three of you 
rally around that I think it would be helpful.
    Ms.  Jones. If I may, Chairman, one of the strengths--I 
think it was--is this on now? One of the strengths of the 
approach that we have in the task force is that DoD is a member 
of this task force and we have been in discussions with DoD and 
with AFRICOM and we----
    Chairman  Royce. Right. Right.
    Ms.  Jones [continuing]. And we will continue those and I--
--
    Chairman  Royce. And there is no mention of the strategy or 
role for the Defense Department in this document. That is why I 
am pushing you. I am saying we got push back last year.
    I am just saying if they are outgunned, you know, you have 
got some people out there that can give them that capacity and 
the intel and sort of level the playing field and we want you 
to really push on that.
    My time has expired and I am going to go to Karen Bass. 
Thank you very much.
    Ms.  Bass. I just want to follow up on that because I know 
in the discussions that I have had with AFRICOM while traveling 
and with DoD there just didn't seem to be--just didn't seem to 
be a real high priority. So I would definitely appreciate that 
message being sent.
    Along with that, you know, I also think of equipment that 
we might be able to be helpful with. I know in one country we 
talked about the use of drones.
    In Gabon, for example, that wouldn't work because of the 
rain forage--rain forests. But in other countries, you know, it 
might be a very appropriate use.
    I wanted to ask some questions, following up from the 
conversation that we were having before the hearing started, 
about the U.S. in terms of the--you mentioned before how most 
of the ivory is passing through but then there are also 
consumers in the U.S.
    I, prior to this, didn't really view our country as a 
problem. I thought it was more overseas, and so I wanted to 
know your opinion about what we should do here in terms of 
current law, increasing penalties, deterrents, et cetera.
    What are your ideas that we should do here?
    Mr.  Ashe. Thank you, Congresswoman Bass.
    I think the first step is to end commercial trade in the 
United States. So as you mentioned, you know, in Los Angeles 
you can visit probably dozens of antique stores. You can do 
that here in Washington, DC, New York City, Seattle. Any major 
U.S. city you can go into an antique store and see items like 
this for sale.
    It is very difficult from a law enforcement perspective to 
tell the difference and tell that this is an antique--it is 100 
years old--something else is not. And so we need to end the 
trade and so that is one step we can take.
    Ms.  Bass. Well, you know, actually the stores that I was 
mentioning are not antique stores.
    Mr.  Ashe. Right. They are just bazaars. You can go to the 
Dulles bazaar, the monthly bazaar here at Dulles Airport and 
there will be probably a dozen, you know, stalls where people 
are selling ivory products and so----
    Ms.  Bass. It is kind of hard to say if you have 100 items 
that are exactly the same that they are antiques.
    Mr.  Ashe. And so what we have--what we have found is the 
legal trade in ivory has become a smokescreen effectively for a 
burgeoning new trade because the value of these products is so 
high and has escalated so dramatically.
    So we need to take that step and it is not just important 
from the standpoint of ending the trade. It is important from 
the standpoint of establishing U.S. leadership on this issue.
    So the next big step is to use diplomacy on the global 
level to reduce demand and that is--long term that is the most 
important ingredient and the U.S. has to be able to speak from 
a position of leadership and I believe our ban on ivory trade 
in the U.S. sets an example for the world as our crush of ivory 
did back in November. It allows us a position of leadership in 
the world and a voice of leadership.
    Ms.  Bass. Any other comments? Thank you.
    Ms.  Jones. I think that Director Ashe's point about the 
leadership is one that we have a real opportunity to move 
forward on now. Just a short while ago, the Prime Minister of 
Vietnam went out to all of his ministries and said you need to 
now pay more attention to wildlife trafficking, very similar to 
what we did with the--President Obama did with his Executive 
order, and Secretary Kerry had raised this with the Prime 
Minister during a visit and talked about this issue.
    So I think that our ability to sort of have a full court 
press in all of our diplomatic engagements and being very 
credible about what we are doing at home and also talking about 
how we can work together will begin to bring down both the 
supply and demand.
    But our challenge now is to maintain momentum and I think 
with this strategy and the implementation plan that will come 
from it we will be able to do that.
    Ms.  Bass. You know what? In thinking about my trip to 
Botswana and how they were able to--actually, the same 
villagers that understood that this was part of their economic 
development prior had been participating in poaching.
    And I am just wondering if there is, you know, some role 
that the U.S. might play in either technical assistance, 
education in other communities around the continent where you 
have people who are actually participating--you know, the 
residents in the community that lives nearby because they are 
desperate because of the poverty.
    They are seeing it from a very shortsighted perspective and 
if that might be a role that the U.S. could play is to go 
around and provide that technical assistance to show how this 
could actually improve your development and not view it so 
shortsightedly.
    Ms.  Jones. Well, I had the opportunity to travel to 
Tanzania where I visited some of the USAID programs that try to 
do that.
    Ms.  Bass. Okay.
    Ms.  Jones. They have programs called Wildlife Management 
Areas where a community actually looks at the economics of 
being able to have tourism in their area and it is a jointly-
owned process.
    I sat in a room where they looked at income from tourists 
coming in and there was a real sense of what the value of the 
wildlife and their whole environment was to that community. And 
so there is a long history of doing that and I think there are 
more examples of that spreading in different countries through 
different activities of USAID.
    Connecting that then to national policies which have more 
protection and also have better national policies will, I 
think, make a big difference from local all the way up to the 
national.
    Ms.  Bass. And I know I am out of time, Mr. Chairman. Just 
quickly, what about the African Union? Do you think the African 
Union is aggressively taking this issue on? Are we working with 
them?
    Ms.  Jones. Yes. We are--we are working with them. We have 
raised it with them and we continue to raise it with them. I 
would think that it is something that they have responded to.
    My former boss, Under Secretary Hormats, raised it with the 
leader of the African Union and we will continue to do that.
    I think our approach has been, from a diplomatic 
standpoint, to work at this bilaterally, regionally, through 
international organizations, through every channel we can. And 
so that is the approach we are going to keep.
    Ms.  Bass. Okay. Thank you. Thank you, Mr. Chairman.
    Chairman  Royce. Mr. Rohrabacher of California.
    Mr.  Rohrabacher. Thank you very much, Mr. Chairman.
    Couple of--just look at some specific suggestions, and Mr. 
Attorney General or Assistant Attorney General, would you--I 
think you mentioned asset forfeiture and could we have--today 
if the assets are seized from these people who are breaking the 
law and are poaching and are being destructive of this natural 
resource, does that then go into the fund for preserving them 
and enforcing the law or does the asset forfeiture just go into 
a general law enforcement fund?
    Mr.  Dreher. There is some opportunity to direct funds that 
are seized or assets that are seized into law enforcement funds 
that can have some benefit for us. The Endangered Species Act, 
for example, has a fund program that lets us use it for some 
limited purposes.
    There isn't--there isn't an ability to really direct the 
assets that are seized directly to law enforcement in a larger 
way. It is a very limited opportunity, and in many cases when 
we seize assets under other statutes, when we, for example are 
charging crimes involving smuggling, you know, the assets will 
go directly to the Treasury and not to law enforcement 
activity.
    Mr.  Rohrabacher. Mr. Chairman, I would suggest that 
perhaps a source of revenue for this effort would be that we 
direct the assets that are seized from people who are breaking 
the law by murdering these species that that be directed 
specifically to that fight. That might increase the 
capabilities of those who are enforcing the law.
    In terms of technology, is there--we have incredible 
intelligence technology today. We can zero in, and do these 
countries that are trying to oversee large areas where you have 
poachers actively murdering these elephants and rhinoceroses--
do they have the capability--do they have technological 
capability that would be affordable to them to get that job 
done? Whichever--Mr. Ashe.
    Mr.  Ashe. I would say across the board, Congressman, no. I 
mean, as Chairman Royce indicated in his opening statement that 
what we have seen, because of the escalation in value and 
demand for these products the--you know, criminal networks have 
upped their game.
    And we used to deal with poaching, which is--you know, much 
like we deal with poaching in the United States, it was 
opportunistic. It was locally driven by local economies.
    We now see organized syndicated trafficking networks and 
they have--they are very sophisticated. They have access to 
technology and arms and equipment that our--that our colleagues 
in these range states do not have.
    Mr.  Rohrabacher. So in terms of overseeing a large animal 
reserve in Africa, we have people who are at a great 
disadvantage because they do not have what perhaps an infantry 
squad in Afghanistan would have----
    Mr.  Ashe. Correct.
    Mr.  Rohrabacher [continuing]. Available to them. All 
right.
    That is--we have a lot of--Mr. Chairman, we have a lot of 
excess military equipment that--left over from these adventures 
in the Gulf that might be available to these people at a very 
low cost because we have it there.
    And who would--Secretary Jones, what countries would you 
give gold medals to and what countries would you put on the 
dirty guys list?
    Ms.  Jones. That is a very good question. What I have been 
seeing in my travels is that the governments--many of the 
governments are trying to do the right things and much of the 
poaching and the activity is coming from groups that cross 
borders.
    I think that a country like Tanzania is trying very hard to 
do the right things. I think that South Africa is trying. I 
think Kenya is trying. I know that there has been an effort 
with the legislators in Kenya to look at policies.
    So in terms of engagement and our discussions, we are 
seeing a lot of leaning into the right policy directions. It is 
the implementation question.
    Mr.  Rohrabacher. I am going to put you on the spot because 
what happens quite often--I always ask the question is what are 
your most highest priority for budget issues, which are lowest 
priority, and everybody is always willing to give their high 
priorities but they are never willing to tell us the low 
priority because they know that that is where we will cut. In 
terms of the question I just asked----
    Mr.  Connolly. Mr. Rohrabacher, my lowest priority in the 
budget is defunding Obamacare.
    Mr.  Rohrabacher. Thank you. Madame Secretary, you gave us 
some good countries.
    Do you have any bad boy countries that we should put on our 
list of people who are not doing the adequate job and perhaps 
intentionally not, maybe through corruption or whatever? I 
notice you didn't mention Zimbabwe or any other country like 
that.
    Ms.  Jones. No, I don't have--I mean, honestly, I don't 
have a country I would put on that list and it is--from my 
perspective, it is not a budget issue. I mean----
    Mr.  Rohrabacher. Oh, no. I am not talking about budget. I 
am just saying who you are telling us we got to watch out for 
these guys because they are not--they are not only not doing a 
good job, they may be in cahoots with the bad guys, versus you 
gave us a few lists there of people that deserve a gold medal, 
and which one deserve the, you know, bad recommendation?
    Ms.  Jones. I think--I don't think I can answer that 
question because I am--seriously, you know, I would turn to 
Director Ashe to maybe say what he is seeing on the ground.
    But from a policy perspective, what I am hearing is that 
the governments are trying to take the right actions. So I 
would turn to Dr. Ashe and maybe he is going to say on the 
ground.
    Mr.  Ashe. Congressman, I guess I would say that the most 
important thing right now is we have the opportunity to learn 
that. I think what we are finding is that these--because of the 
value of these products they are finding the path of least 
resistance and often times that is not the range state. The 
range state is taking----
    Mr.  Rohrabacher. I see. Yes.
    Mr.  Ashe. So I think the important thing is for us to 
learn the answer to your question. I think right now we don't 
know that. It looks like the bad guy might be Zimbabwe or it 
might be Congo or it might be--but really, they may be doing 
everything they can do within their power. So I think we need 
to learn that.
    Mr.  Rohrabacher. Well, I know if we are talking about fish 
and sharks that the Chinese like to have their shark fin soup 
and they are destroying--I--we used to when I was a kid--I am a 
surfer and all that--I used to spend a lot of time and I--
frankly, surfers and sharks don't get along. But I like to eat 
shark. I mean, I--we used to barbecue it.
    But the fact is that the Chinese, with their consumption 
patterns are destroying sharks--the whole shark population 
around the world and that is an issue of concern and I would--
Mr. Chairman, I would think that whether it is China or 
elsewhere, the consumers of these products--those governments 
need to be brought to task as well. Thank you very much.
    Chairman  Royce. And take shark fin soup off the menu.
    Let us go to Gerry Connolly of Virginia.
    Mr.  Connolly. Thank you, Mr. Chairman, and I would like to 
pick up on Mr. Rohrabacher's question because what he is 
getting at is the word efficacy.
    It is not--it seems to me, if we care about this subject it 
is not satisfactory that somebody is bending into the right 
policies--doing the best it can.
    The question is, is it effective? Are we losing this battle 
or are we winning it, and what are the metrics that get us to 
winning? And Mr. Rohrabacher's question has to do with bench 
marking. What are the best practices and, bottom line, are they 
working? Otherwise, they are not best practices.
    So, Dr. Jones, let me reframe the question. As we look for 
models where there are clear metrics, where there is the 
commitment of the government, there are the resources in place 
and in fact we are seeing trafficking go down and the organized 
traffickers moving on somewhere else because it is just too 
hard there, what would you cite? Where would you cite?
    Ms.  Jones. Thank you, Congressman.
    I think that question gets at the two parts of this 
problem--the supply and demand--because we have been talking 
about both market countries and range states. And, certainly, 
the U.S. and China are two of the biggest markets for these 
products.
    And shark fin soup was also mentioned and there have been 
campaigns that have shown that there has been an effect in 
reducing the demand for that by outreach.
    So we have been increasingly engaged with the Chinese to 
work on market demand because the reason these prices are so 
high is because people will put out the money for this.
    So I would say that we do need benchmarks. We are at the 
turning point.
    I can't--I can't tell you exactly how much we have done 
with China to reduce demand of ivory right now but I think what 
we need to do as we move into this implementation plan is look 
at how the outreach going to affect demand, how are we going to 
increase seizures, how many more rangers are we going to have 
on the ground and how many national policies do we have.
    So it is from the ground up to the policy that we have to 
have benchmarks and we will just have the strategy out and we 
are going to get to that with the implementation plan, but to 
make the point that it is both pieces of this.
    It is the supply, demand and transit and so we have to have 
benchmarks for each piece of that and that is what we are 
working toward.
    Mr.  Connolly. Dr. Jones, I appreciate that commitment but 
this problem is not a new problem. One could infer from what 
you just said that we are pretty far behind the curve here in--
and we are not--we don't even have an implementation strategy 
to set benchmarks or metrics? We are just getting around to 
that?
    Ms.  Jones. Well, we are just getting to an implementation 
plan based on this recent strategy.
    Mr.  Connolly. Is there a single country of origin, hold in 
abeyance China or the United States as consumer countries, but 
is there a single country of origin you can point to where 
substantial progress has been achieved, where poaching is down 
and animal populations are either stabilized or, in fact, 
growing?
    Mr.  Ashe. Mr. Connolly, I would--I would suggest Namibia.
    Mr.  Connolly. Namibia.
    Mr.  Ashe. Namibia is an excellent example of a country 
that has an exceptional program and record. There are 5,000 
black rhinoceroses left in the world. Eighteen hundred of those 
are in Namibia.
    Mr.  Connolly. We might not--we might not want to bring too 
much attention to that.
    Mr.  Ashe. Right. That is right. And so we--what we owe 
those countries is support. So, for instance, I mean, Namibia 
right now is, you know, going through a process of allowing the 
harvest of a black rhino.
    They can--they have a--they have a quota of up to five per 
year. They have never filled their entire quota and right now 
it is very--it has become very controversial because they are 
going to allow the harvest of a single black rhino. But we owe 
them support----
    Mr.  Connolly. Yeah.
    Mr.  Ashe [continuing]. Because they are the gold standard. 
And so I would suggest Namibia and so that we can expand that 
example throughout Africa.
    Mr.  Connolly. And I think you have just put your foot--
your finger on something that I think is really important. 
Look, we have got to be bottom line focused here, including the 
State Department. Are we making progress or are we falling 
behind?
    You can have the best strategy, best policy, the best 
aspirations in the world and still lose the game, and where we 
find a good actor who is not only trying to do the right thing 
but actually making progress, I agree with you--then let us get 
behind them big time to show others the reward system that 
faces them if they start to put the resources in to try to, you 
know, fight back against the poachers and the traffickers 
because I have to say, Mr. Chairman, I am alarmed at what I am 
hearing in this hearing.
    Not lack of effort, not lack of commitment but we are 
losing this game. We are not--we are not making progress and we 
are up against actually something far more organized, far 
better financed, far more violent and dangerous on the ground 
than most of the local governments or even military can, 
frankly, handle.
    And we are going to have to think through our strategy here 
and make it a lot more robust if we are going to begin to turn 
the tide. Otherwise, we are going to lose this battle.
    Thank you, Mr. Chairman.
    Chairman  Royce. Mr. Connolly, I think you are right. On a 
lot of fronts we are--we are losing. In Namibia, we are winning 
or Namibia, I should say, is winning and part of that is 
because they have a community-based local conservation program 
of the first rank there and it is something of a template.
    Mr.  Connolly. Yes.
    Chairman  Royce. And if that can be expanded then on other 
fronts I think the tide can be turned.
    Mr.  Connolly. And Mr. Chairman, just to underscore--just 
to underscore what you said, because you are putting your 
finger exact, we have got to look at benchmarks.
    We have got to look at best practices and try to encourage 
them elsewhere. Otherwise, we can have a lot of international 
agreements and strategies and goals and policies but meanwhile 
we are losing--we are losing the game.
    Thank you, Mr. Chairman.
    Chairman  Royce. Thank you.
    Randy Weber.
    Mr.  Weber. Thank you, Mr. Chairman.
    In reading through this report it brings up a whole lot of 
questions and I guess it does get the bench marking and what my 
friend, Mr. Connolly, was saying, trying to get a benchmark and 
trying to make progress.
    So I have got some questions. In our report--and this is 
not from you all's testimony but I do want you all to answer 
the questions if you can--we talk about eyewitness accounts 
from the Lord's Resistance Army, LRA, which talks about some of 
the abductees, for example, Joseph Kony has ordered his 
fighters to get elephant tusks and they are going to terrorist 
groups.
    Are we building a database of the terrorist groups that are 
involved in this kind of trafficking?
    Ms.  Jones. Thank you for the question.
    We are closely following all of the activities and the 
different kind of illicit groups that are involved. So there 
are terrorist groups. There are militia groups. There are some 
just rogue military and then you have that collection tied into 
organized and syndicated crime.
    And so yes, we are certainly doing more to have information 
on some of these issues and to also work with our partners to 
get more information. So yes, we are trying to move forward on 
that.
    Mr.  Weber. Okay. Are we communicating those terrorist 
groups to our military forces, those who are responsible for 
the war on terror?
    Ms.  Jones. We are sharing our information with the 
appropriate players.
    Mr.  Weber. Okay. And have they taken any action that you 
know of against these groups based on the information that you 
have sent them, Dr. Jones?
    Ms.  Jones. I can't speak to that at this time here.
    Mr.  Weber. You do know that this is not the appropriate 
setting?
    Ms.  Jones. Yes.
    Mr.  Weber. Okay. Then we will talk offline. And then 
keeping in line with that questioning, of those terrorist 
groups that we are identifying with the database, are we rating 
and ranking them in what order are the most--the most active 
and second most active?
    Ms.  Jones. It is difficult to talk about all the details 
at this--in this setting. There is a lot of information we are 
trying to gather and also share that with partners and other 
players and we are continuing to sort of raise the importance 
of this issue as how it ties into all of these networks and 
their activities.
    Mr.  Weber. Okay. Because we are talking about funding 
but--in the war on terror. You know, once we have identified 
these groups and you even--in our report it talks about there 
are certain--seems to be certain routes that they use in 
smuggling across the different countries.
    You talk about them traversing country lines, state lines, 
borders. Have we identified those routes? Are we, you know, 
staking out those routes?
    Ms.  Jones. We are beginning to track those routes and we 
are beginning to sort of use that information in how we respond 
and share it with partners in sort of the coordinated 
operations that I was mentioning in my testimony, these 
different sharing of information between all of the countries 
involved in Africa and Asia to understand those routes.
    So I think we are in the process of getting more 
information on how all of these different illicit activities 
are coming around this activity because this is just about--
this is about money and so we are tracking the money.
    We have to follow the money and that is one of the things 
we are really working on from both----
    Mr.  Weber. Okay. That is a great segue to my next question 
about the money because we have instituted a rewards program. 
How successful has that been? Is it paying out? Are we--how 
successful has that been?
    Ms.  Jones. Well, we have just started that as the 
legislation expanded that reward system to include wildlife 
crime. So it is just in November that we have announced the 
first reward and I haven't heard--I haven't gotten any feedback 
on that yet. But I can get more and get back to you.
    Mr.  Weber. Okay. And then you mentioned Namibia, I think, 
as being a success story. On the scale of countries--on the 
scale of the amount of trafficking, where do they fall? Are 
they number two? Are they number 22?
    Mr.  Ashe. I would put them at the top of the scale.
    Mr.  Weber. Well, now, that is in success.
    Mr.  Ashe. Right.
    Mr.  Weber. But in terms of volume.
    Mr.  Ashe. Volume--well, they have little trade and so from 
a--from the standpoint of risk they are low on the scale. So 
they have a very effective management and customs control 
regime so----
    Mr.  Weber. Okay. And then last question--I am running out 
of time--so, I mean, I don't mean to disrespect them or the 
assessment that they are a success story but if they have 
little traffic--if they are a small country and they didn't 
have a whole lot to fight then it would have been easier for 
them to be able to fight that.
    Are we rating countries' governments on how they respond to 
this problem--some of them are cooperating, some are not? Are 
we rating those governments?
    Mr.  Ashe. We are--we have not to date. I think that is the 
point. I can go back to a statement Mr. Connolly made that, you 
know, this has been going on for a long time. I guess I would 
say it has not.
    I mean, what we have seen in the last 24 months is a 
dramatic escalation, 7,000 percent rise in the value of 
rhinoceros horn. And so what we have seen in just the last 24 
months is that these things have become so lucrative that these 
syndicated networks have rushed in.
    And so we are just learning about that and so the routes of 
trade, for instance, what--our traditional approach to dealing 
with wildlife poaching is you go after the poachers. You get 
the poachers.
    And so what we now need to do is we need to let these 
things move so that we can discover their routes of trade and 
who is making the money and where they are. And so we are--we 
are just beginning and the questions you are asking are the 
right questions and we need to--we need to do that.
    We need to identify which countries are the risk, both the 
source countries, the transit countries and then the demand 
countries--where are the highest risks and how can we stack and 
attack those.
    Chairman  Royce. Maybe--Mr. Weber, maybe I could answer 
some of that because in the case of al-Shabaab, to go right to 
your question, in September 2013 al-Shabaab, of course, 
attacked the Westgate Shopping Mall in Nairobi.
    Sixty-seven people were killed there and 200 people were 
wounded, and shortly after that attack the Kenya President 
Kenyatta identified illegal trade in ivory as a source of 
funding for the terrorist group.
    And President Kenyatta made it very clear--I think I--I 
think this was in the Wall Street Journal where I read this--
where he said al-Shabaab acts as a facilitator and broker, you 
know, in ivory.
    One of the reports we have shown that al-Shabaab gets up to 
40 percent of the funds necessary for its operating expenses 
through the ivory trade. The calculation of the quantity on the 
black market is up to 600,000 monthly.
    So when a terrorist organization like that is looking for 
hard currency and they are demonstrably involved in this 
activity and the consequences of this is that they are able to 
sustain an operation in which they, you know, create casualties 
to this extent, and as the President said this cannot be 
curtailed without an offensive against overseas buyers and he 
said we need a global plan to end a business that endangers our 
wildlife and bankrolls a tax on our people in Kenya.
    That would be one example, but also from 2012 we had the 
situation with the Janjaweed and many of us are monitoring what 
they have done not just in Darfur, of course, and in Chad but 
in the Central African Republic.
    But in--on March 2012 the Janjaweed perpetrated one of the 
worst elephant slaughters in recent history anyway, riding over 
600 miles from Sudan all the way to the national park in 
Cameroon. There, they slaughtered more than 300 elephants--more 
than 300 elephants.
    That is the just the attack on Cameroon. They also attacked 
Chad. They also attacked several other countries. They went 
through Kenya on an attack. So you have these terrorist 
organizations that aren't just a threat to wildlife.
    I mean, they are carrying out ethnic cleansing, frankly, or 
carrying out military operations against those who they feel 
are their enemies.
    But one of their sources of hard currency is what they are 
doing in the rhino and ivory elephant trade.
    Mr.  Weber. Thank you.
    Chairman  Royce. And so that is why I want to give you the 
specifics on that. But we go now to Grace Meng of New York.
    Ms.  Meng. Thank you, Mr. Chairman and Ranking Member, for 
holding this important hearing.
    As you know, China in recent months publicly destroyed 
large quantities of ivory, and sort of a two-part question. The 
first part is I wanted to get your take on whether you think 
there has been enough action behind this great symbolism, and 
second, we talked about shark finning before.
    I have been a very small part of a national effort to 
eliminate the consumption of shark finning. We have been 
successful as of last year in New York State, not only via law 
enforcement methods but also in terms of education and 
increasing cultural awareness.
    And I also would like to get your take on the cultural 
elements affecting the demand side here in the U.S. or abroad 
and what are some strategies we can use to reach out to 
communities where demand for ivory is high.
    Ms.  Jones. Thank you.
    The Chinese did destroy about--I think it was six tons 
maybe of ivory recently and we took that as a very good sign 
but is a sign--it is a symbolic sign of moving away from sort 
of a national support of this kind of trade.
    But more substantively, we have been working closely with 
the Chinese and we have been seeing a strong interest on their 
part to partner with us on a number of ways of looking at this.
    So they have been very active, as I mentioned, in this 
international operation to look at all of the different points 
along the trade route, those COBRA operations where COBRA II 
recently, I think, had something like an increase of 400 
arrests and 350 seizures and China was a partner in that 
activity.
    Now, that is in a multilateral setting but we are also 
seeing--we have engaged the Chinese through the strategic and 
economic dialogue, which is one of our main bilateral 
engagements, to discuss issues with them.
    And last year for the first time we discussed wildlife 
trafficking in this forum for our strategic relationship and 
our economic dialogue which show the importance of it and it 
was a very engaged discussion and we have been having very good 
follow-up on this.
    So there is engagement and there is interest. There is 
also--we have been working with the China-U.S. joint liaison 
group on law enforcement because there are all these different 
pieces of the problem that have to get attention.
    So, clearly, China realizes that it is a large market for 
these products. We are also a large market so we have been 
trying to assume a leadership together on this and engage in 
every way that we can.
    We have a lot of work to do but I do think that there has 
been some progress and I personally have been involved in the 
discussions. We also see it in our relationship on illegal 
logging, which is related to this issue.
    Now, the point about changing demand, we have been talking 
about that because there is a cultural issue. There is a 
younger generation coming up in our country and around the 
world that is very conservation minded and we are working with 
the Chinese about messaging how do you get this out. That was a 
very important part of the whole shark fin campaign.
    So I think there is a lot we can do and we are getting, as 
I said, a very positive response.
    Mr.  Ashe. Ms. Meng, I would say one thing about the ivory 
crush and the elimination of confiscated stockpiles is that we 
have seen encouraging results initially at the--at last year's 
conference of the parties for the Convention on International 
Trade in Endangered Species.
    There was agreement that all parties to the convention, 179 
member nations, should report on their stockpiles and that is 
due by the end of February. And so by the end of February, we 
will have a sense of what are nations carrying in terms of 
stockpiles.
    The U.S. stockpile, which we destroyed in November, was 
about six tons. A country like China would have many times 
that, and so having that information we will then be able to 
put that in context because it is not just the symbolism. It is 
the risk that that--those stockpiles represent because they 
have to be secured.
    In the U.S. our stockpiles are very secure. In other 
European nations they would be very secure but in many of the 
range and demand countries the security of those stockpiles is 
an issue.
    Ms.  Meng. Thank you. I yield back.
    Chairman  Royce. Thank you.
    We will go to Ted Yoho of Florida.
    Mr.  Yoho. Thank you, Mr. Chairman. Appreciate you being 
here today, and it just--I never cease to be amazed at the 
stupidity, ignorance and brutality and greed of my fellow man 
on something like this.
    I want to build on Ms. Meng's questioning on the cultural 
elements. You are seeing that change in the Asian countries 
where the big demand is. We can only hope that we do more of 
that.
    I assume you have videos of these animals slaughtered, the 
remnants of that, and I assume this goes through a regular 
business transaction.
    You have the supply side, which is the animal, and then you 
have the facilitator, the poacher, then the facilitator, the 
broker and eventually the buyer.
    What is the poacher on an average--is there an average 
figure that they receive out of this and is there an economic 
incentive we can say don't do it--we will give you the money?
    Ms.  Jones. I can sort of give you an estimate for one that 
I remember when we were discussing this with the Kenyans. I 
think the amount that the poacher was getting was like five 
times the annual salary of a ranger. It was some inordinate 
factor.
    But that may be off. I mean, Dan may have a better number 
on that.
    Mr.  Ashe. Like, in terms of the value--the end value of 
the product they are getting very little. But in terms of the 
comparison to their--what they could otherwise make they are 
making very much.
    Mr.  Yoho. So they are making thousands?
    Mr.  Ashe. By equivalent, yes.
    Mr.  Yoho. Yes.
    Mr.  Ashe. And so I think that is the issue that the 
chairman mentioned, the community-based approaches to these 
challenges. It is very important that the people see a value in 
an elephant tusk that is beyond the immediate harvest because 
that represents a dead elephant. That represents a dead 
rhinoceros. So that is a one-time harvest.
    Mr.  Yoho. Right. And that also represents a lifestyle for 
somebody for 2 or 3 years probably in those countries, right?
    Mr.  Ashe. Correct.
    Mr.  Yoho. Yes. And they are looking at their family or 
lifestyle. The demand side, again, I just, through education, 
you know, it just--it is mind boggling that somebody thinks 
that, you know, they are going to get a hangover and they are 
going to crush up some rhino horns and make a powder and, you 
know, instead of just educating them a better way to deal with 
their problems instead of getting rid of our resources.
    And if you look at the life span of a rhinoceros, it is, 
what, 45 to 60 years and, you know, sexual maturity of the 
female is, I think, 6 to 8 years of age and the males 10 to 12 
and they have got about a year and a half gestation period.
    Is anybody looking at, and I don't even know if I want to 
go here, but animal husbandry to raise them and then harvest 
the ivory? Because you were saying in Namibia that they allow 
for the harvesting of a male.
    I mean, are they using a tranquilizer gun or is it it is 
killed--shoot to kill and then have your picture taken with it? 
I mean, are they looking at using tranquilizers and then 
removing the antler or the horn versus killing the animal?
    Mr.  Ashe. There have been a lot of--of course, elephants 
you can't remove the tusk. Any kind of ranching or farming of 
elephants is difficult because they are slowly reproducing 
long-lived animals.
    Mr.  Yoho. They sure are.
    Mr.  Ashe. Rhinoceros, they are--you can remove the horn 
from a rhinoceros. There has been some experimentation with 
doing that but they grow back and at the value of these horns 
if you cut the horn off, you know, low even that little bit is 
extremely valuable. And so there have been attempts to--at what 
we would call traditional management approaches to this and 
because of the value of the products they are--they have been 
largely unsuccessful.
    That doesn't mean we can't try in the future. The case I 
mentioned in Namibia is a sport harvest so that would be--that 
is a, you know, post-reproductive male that is essentially 
outcompeting reproductive males.
    They need to take it out of the population for good 
management purposes. The individual who would harvest that has, 
you know, purchased the--you know, the privilege to do that 
for, I think, close to $300,000. All of that money would go 
back into management. That is why Namibia has such an exemplary 
program.
    Mr.  Yoho. Let me get your opinion on doing the ivory crush 
and breaking the supply side. Is that going to increase the 
value of them, obviously, and is that going to create more 
demand and a more black market? I guess you can't get any much 
more of a black market.
    Mr.  Ashe. The material that we crushed was confiscated--is 
contraband.
    Mr.  Yoho. Right.
    Mr.  Ashe. So it would never go into trade. So destroying 
it would have no----
    Mr.  Yoho. But it decreases the supply side so the demand 
or the value is going to go up on the stuff they can get, 
right?
    Mr.  Ashe. No, because it would have never been in trade 
anyway.
    Mr.  Yoho. But I am talking about future procurement of the 
horns.
    Mr.  Ashe. Presumably, but if you end the demand--if you 
end the trade and you end the demand then that is the way, I 
think, we have to deal with it. We have----
    Mr.  Yoho. I agree. I mean, that would be the best way and 
just get people off of this stuff. I just find it horrendous 
that people are doing this in the 21st century. Thank you.
    Chairman  Royce. Thank you, Mr. Yoho.
    We go now to Mr. Matt Salmon of Arizona.
    Mr.  Salmon. Thanks a lot, Mr. Chairman. I think it goes 
without saying that we all support the idea of protecting and 
preserving and cultivating endangered species all around the 
globe, particularly elephants and rhinoceroses.
    This hearing is really helpful as we look toward the best 
models of how to access and address--excuse me, address this 
program globally. Mr. Ashe and Dreher, as you are working on 
new regulations on the domestic sale of ivory--I am talking 
about ivory that is already legal and here, not the future 
stuff--I think it is important that we avoid the trap of 
intended consequences.
    Specifically, I would like to urge you to adopt rules that 
do not harm U.S. collectors--I mean, people that already have 
it within the family.
    I am particularly concerned about families that might have 
a family heirloom currently that is ivory, which could be, you 
know, a gun handle or a knife handle or a statue which has been 
passed down from generation to generation with little regard of 
paperwork sometimes.
    And so I am hoping that as we develop the rules we don't 
get a situation where we are essentially taking family 
heirlooms and making them worthless. And so while I completely 
support going forward and making sure that, you know, that 
folks that are acting in an illegal way that we prosecute them 
to the nth degree of the law and that we make sure that, you 
know, that we do this for the future.
    But how can we balance in rule making to make sure that 
people that have had legal ivory in their homes for years--from 
years and years and years aren't hurt by the, you know, law of 
unintended consequences?
    Mr.  Ashe. It is a difficult proposition although I would 
say unequivocally that people who have a family heirloom that 
has been passed from generation to generation can continue to 
pass that heirloom. They can own it. They can possess it. They 
can move it.
    Mr.  Salmon. They can't sell it, though.
    Mr.  Ashe. They cannot sell it.
    Mr.  Salmon. And that, to me--I mean, it renders the thing 
basically valueless.
    Mr.  Ashe. If it is a family heirloom it strikes me that 
the value is in the generational value of the product. The 
challenge for us is that these products are--it is very 
difficult to judge the authenticity of them because of the 
value of them and the relatively low penalties associated with 
trafficking in them that the risk is low, the value is high and 
so legal trade is a significant smokescreen for effective law 
enforcement.
    Mr.  Salmon. I understand that it might be difficult. But 
what I am saying is not all--I mean, I might have an heirloom. 
What if I have a Picasso that is left to me but maybe my folks 
leave it to me and we come on economic hard times and we 
decide, you know, I need to sell that Picasso because of the 
value of the product.
    I am saying something that has been in the family for a 
long, long time is there a way to do rule making so that we 
prosecute the bad guys that are trying to exploit, you know, 
new ivory, exactly what you are trying to accomplish.
    Your goal is not to punish people that have owned legal 
ivory for the last 100 years. Your goal is to make sure that 
for the future that we don't have bad actors and further, you 
know, dealing with causing extinction or, you know, a dwindling 
of those resources.
    So is there a way to develop the rule so that people that 
have had legal ivory don't get caught in the cross hairs?
    Mr.  Ashe. I think there is a statutory exemption in the 
Endangered Species Act for antiques over 100 years of age and 
but what we will have to do is ask for rigorous documentation.
    Now, if you own something that is extraordinarily valuable 
like a Picasso or a, you know, a Steinway you are going to have 
that documentation because you will be able to show a trail of 
transaction over many periods because they are extremely 
valuable.
    And so I think that people will be able to document that 
for things that are--that have extraordinary value.
    Mr.  Salmon. What if I--what if I owned a firearm that had 
ivory grips on it and perfectly legal, but I sold the firearm? 
Am I going to be in the cross hairs of the government because I 
am--you know, I am selling something that I have owned for 
several years but I have decided I want to sell it?
    Mr.  Ashe. Well, I guess I would--from the standpoint of 
the U.S. Fish and Wildlife Service, our priority for law 
enforcement is syndicated commercial-scale trafficking.
    Mr.  Salmon. Okay.
    Mr.  Ashe. We are not looking for the average American, 
although it would, under our proposed ban, if that firearm is 
not an antique then it would be illegal for you to sell it and 
the--and you would need to be aware of that.
    And so I think that is--we do--it is our opinion that we do 
need to end the legal commerce in ivory and we need to do that 
at some point in time.
    Mr.  Salmon. Okay. Thanks, Mr. Chairman.
    Chairman  Royce. Mr. Ted Poe--Judge Poe of Texas.
    Mr.  Poe. Thank you, Mr. Chairman. Thank you for being 
here.
    I am very concerned, like a lot of folks are, about this 
actual disappearance of some of the world's animals because of 
these outlaws that are killing them and selling them for money. 
It is all about that filthy lucre, money, and it involves a lot 
of bad guys--terrorists, criminal gangs, you know, solo thieves 
and bandits.
    But it is all about the money, and I am really concerned 
that they may be actually eliminating species, that they are so 
successful that they are not breeding enough of these animals 
to catch up with the robbers of their lives.
    Lacey Act--I want to talk about that. Hypothetical question 
and, really, I am looking for some answers on what we can do, 
Congress, to go nail these people. Maybe that is not polite 
language, certainly not diplomatic language.
    But anyway, we got a company--let us use the hypothetical--
operating in Africa, and they are a conservation company and 
they trade in endangered animals. They violate the Lacey law.
    If they are an American company they are subject to the 
Lacey law in the United States. Is that correct? American 
company, they are violating the Lacey law, operating in some 
African country and they could be prosecuted under the Lacey 
law. Is that correct?
    Mr.  Dreher. I think the predicate offense in a Lacey Act 
violation is putting into commerce or importing into the United 
States an article that is taken in violation of foreign law.
    Mr.  Poe. Oh, yes. That is assumed.
    Mr.  Dreher. So they would have to be bringing it into the 
United States. Yes.
    Mr.  Poe. They are bringing in--they are bringing it to 
America.
    Mr.  Dreher. And if they are doing that in violation of the 
host country's wildlife laws, yes, that would be a Lacey Act 
violation.
    Mr.  Poe. Go after them. Nail them. But you got a foreign 
country doing exactly the same thing in the fact that they 
recruit. They are in violation of the Lacey law in other areas.
    But let us say they advertise in the United States. They 
recruit hunters to go to their little game ranch wherever it is 
in Africa but they are notorious for operating and trading in 
illegal, you know, ivory or whatever it is.
    But they still are able to get access to American hunters 
and advertising because the Lacey law doesn't apply to them. Is 
that--is that correct?
    Mr.  Dreher. Again, I think unless the American 
participants are bringing in to the United States----
    Mr.  Poe. They are not doing that. They are not bringing it 
in.
    Mr.  Dreher. They are not bringing back trophies?
    Mr.  Poe. No. But you got this corporation--foreign 
corporation operating, doing the same thing only they are 
operating in another country.
    The only thing they do in the United States is recruit 
hunters to go and they--you know, hunters go and, you know, 
don't bring the trophies back--illegal trophies back in the 
country.
    My real question is how can we get the Lacey law or some 
type of action to go after these independent foreign 
corporations that are doing this and really competing with the, 
you know, good corporations of the United States that have vast 
amounts of land that they conserve, doing the right thing, but 
they compete with these guys that are involved in the trade?
    I don't know that I framed the question very well. What can 
we do to go after those folks I guess is really my question. 
What can we do legally--legislatively? Ideas--I am open to 
ideas, Dr. Jones.
    Ms.  Jones. Yes. There are a couple of things that come to 
mind, Congressman. I think you raise a very good dimension of 
this. One is the typical diplomatic route. We work with these 
countries to show them how the Lacey Act works and sort of try 
to encourage them to have laws just like it. So we do try to do 
that.
    The second thing is in trade agreements, that we have 
environmental provisions that elevate this and try to ensure 
that countries involved in trade relations are dealing with 
issues like this and following international agreements like 
CITES and that is part of the requirement in the trade 
agreement.
    And so we do have environmental sections of our trade 
agreements and we are in the process of trying to put these 
into some of the new agreements that are under negotiation.
    Mr.  Poe. Can't we at least prohibit those companies--we 
know about their--what they are doing in another country. We 
can't reach them because they are a foreign company. Can we 
prevent them, since they are doing this activity, from at least 
advertising and recruiting in the United States?
    Mr.  Ashe. If they are--I think, as Dr. Jones mentioned, we 
have other international instruments like the Convention on 
International Trade and Endangered Species and if their 
activities are undermining the implementation of those other 
international instruments then we can bring an action.
    We can sanction those countries under the Pelly Act so we 
have--we do have mechanisms to ensure that international 
instruments are being effectively implemented. They are not 
being undermined. And so perhaps we should look at the Pelly 
Act. But I would applaud you, Congressman, for your reference 
to the Lacey Act.
    It is the workhorse of national and international wildlife 
law enforcement and I would just, you know, say to the 
committee tomorrow there is a hearing before another committee 
of this House of Representatives where some significant actions 
are being considered that will weaken our ability to enforce 
the Lacey Act.
    And so we need effective voices to not just maintain the 
Lacey Act but strengthen the Lacey Act as a means of 
enforcement.
    Mr.  Poe. All right. Thank you, Mr. Chairman.
    Chairman  Royce. Yes. Thank you, Judge Poe.
    And, again, we thank our three witnesses here. We 
especially want to thank also the NGO community that are really 
integral to, frankly, the partnership that has got to be put 
together here to bring the amount of tension necessary to 
elevate this issue before it is too late, as I indicated in my 
opening statement, before we reach the point where these 
species have been slaughtered to the point of extinction.
    So thank you all for your efforts here, and we will be back 
in touch because we do need that draft language, your 
assistance on that front, and thank you again to our witnesses.
    We stand adjourned.
    [Whereupon, at 11:47 a.m., the committee was adjourned.]
                                     

                                     

                            A P P E N D I X

                              ----------                              


                   Material Submitted for the Record



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


 Material submitted for the record by the Honorable Edward R. Royce, a 
Representative in Congress from the State of California, and chairman, 
                      Committee on Foreign Affairs



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                                 <all>

</pre></body></html>
